No. 19-847
Jonathan Reisman v. Associated Faculties of the University of Maine, et al.,
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Amicus Curiae
Brief of Pacific Legal Foundation contains 3,033 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 24, 2020.

ERIN E. WILCOX
Counsel of Record
DEBORAH J. LA FETRA
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
Email: EWilcox@pacificlegal.org
Email: DLaFetra@pacificlegal.org
Counsel for Amicus Curiae of
Pacific Legal Foundation

